      Department of Homeland Security




      Federal Emergency Management Agency Needs To
        Improve Its Internal Controls Over the Use of
               Disaster Assistance Employees




OIG-13-13                                  November 2012

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                               Washi ngton. DC 20528 / www.oig.dhs.gov



                                 NOV 2 9 2012

MEMORANDUM FOR:               Albert B. Sl igh, Jr.
                              Associate Administrator, Mission Support
                                                   y      nagem
                                                              ~ nt A e cy

FROM:                         D. Michael Sea               ~ ,~
                              Assistant Insp~ General      I' -
                              Office of Erner ncy Management Ove rsight

SUBJECT:                       Federal Emergency Management Agency Needs To
                               Improve Its Internal Controls Over the Use of Disaster
                               Assistance Employees

Attached for your information is our fina l letter report, Federal Emergency Management
Agency Needs To Improve ItslnternaJ Controls Over the Use of Disaster Assistance
Employees. We initiat ed t his audit from an DIG Hotline compla int alleging t hat a Federa l
Emergency Management Age ncy (FEMA) regiona l office improperl y used the Disaster
Assistance Emp loyee (DAE) program to circumvent the hiring of full-time employees.
Our review did not substa nti ate the allegation. We provided FEMAwith a draft of this
report and have incorporate d its forma l comments in the final report.

The report conta ins fou r recommendations aimed at improving the DAE program. Your
office co ncurred with th ree recommendations and partia lly concu rred with a fourth
recommendation . As prescrib ed by the Department of Hom eland Security Directive
077-1, Follow-Up and Resolutions for the Office of In specto r Genera l Report
Recom m endation s, within 90 days of the date of th is memorandum, please provide our
office with a written response that includes yo ur (1) agreement or disagreement, (2)
corrective action pla n, and (3) target comp letion date for each recommendation. Also,
please includ e responsib le parties and any other suppo rting documentation necessary
to inform us about the current status of the recommendation . Until your response is
received and evaluated, t he recommendations wi ll be considered open and unre solved.

Cons iste nt wi th our re sponsibility und er the Inspector General Act, we are provid ing
copies of our report to appropriate congressional committees with oversigh t and
ap propri ation respo nsib ility over the Department of Hom elan d Secu rity. We will post
th e report on our website for public dissemination.

Maj or contributors to t his report are Tuyet-Quan Thai, Regiona l Director; Scott
Wrightson , Superviso ry Program Analyst; and Joshua Wil shere, Auditor.
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   Please call me with any questions, or your staff may contact John Kelly, Deputy Assistant
   Inspector General, Office of Emergency Management Oversight, at 202-254-4163.

   Attachment




www.oig.dhs.gov                                2                                      OIG-13-13
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   The Federal Emergency Management Agency (FEMA) is authorized under the Robert T.
   Stafford Disaster Relief and Emergency Assistance Act, as amended, to expand its staff
   size temporarily to respond to major disasters and emergencies. Disaster assistance
   employees (DAEs) fulfill this role by performing key program, technical, and
   administrative functions during disasters. DAEs are excepted-service intermittent
   employees, either cadre reservists or local hires. Cadre reservists have an initial
   appointment of no more than 24 months that expires on September 30 of each year
   ending in an even number (e.g., 2010), and may not work for more than 78 weeks (or
   18 months) during the 104-week appointment period. FEMA measures deployments
   during the same 2-year period from October 1 through September 30 of each even-
   numbered year, regardless of whether an employee was already a FEMA employee at
   the beginning of the period or was hired during the period. Local hires have an initial
   appointment of 120 days, which is renewable.

   The DAE program has undergone several changes. FEMA Instruction 8600.1, Disaster
   Assistance Employee Program, was issued in June 1991 as the guiding administrative
   policy for the program. That instruction specifically states that DAE reservists are used
   only to perform disaster assistance program-related work. The work is defined as
   specific disasters, emergencies, projects, or activities of a noncontinuous nature. Other
   than for training, the activation of DAE reservists for assignments in headquarters and
   regional offices is prohibited.

   DAE management challenges are not new. In 1999, Director’s Policy No. 1-99
   established the basis for a systematic, formalized approach to ensure the readiness of
   the DAE workforce to respond to disasters quickly and effectively, wherever needed.
   This directive described actions to achieve the desired readiness and capability. In
   subsequent years, a number of these actions have been implemented to various
   degrees, such as expanding all disaster operations by locally hiring DAEs for positions
   that do not require FEMA-specific expertise or when limited advance training or minimal
   on-the-job orientation or training is sufficient.

   In addition to establishing a framework for managing DAEs, Director’s Policy No. 1-99
   instituted the use of the Automated Deployment Database (ADD) as a management tool
   to monitor overall cadre readiness and capabilities. ADD is intended to track all FEMA
   deployable employees, including full-time employees, cadres of on-call reserve
   employees, and local hire employees. Tracking also includes cadre readiness, initial
   disaster site location (duty station), and training.




www.oig.dhs.gov                                3                                       OIG-13-13
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   In 2007, FEMA commissioned a disaster reserve workforce study by a national strategic
   consulting firm, which determined that approximately 7,900 reservists were needed to
   support normal and high-demand periods based on projected deployment and risk
   tolerance data. 1 The study noted that the optimal size of the DAE workforce depends,
   to an extent, on the degree of uncertainty that is acceptable concerning whether the
   workforce is properly sized to accomplish its mission.

   FEMA structures the missions of DAEs into 23 program areas, managed by regional
   cadre managers.2 Although every program area is not necessarily represented in all
   regional offices, most major program areas, such as Individual Assistance, Public
   Assistance, and Mitigation, have a presence in all regions. Cadre managers help
   coordinate disaster response and recovery needs and deploy DAEs to meet those needs.
   From October 2006 to September 2010, FEMA paid nearly $800 million in salary to more
   than 11,000 DAEs.

   Results of Audit
   FEMA paid approximately 1,600 individuals $36 million more than they would have
   received if FEMA had enforced its limitation of using DAEs no more than 18 months in a
   2-year period ending September 30 of even-numbered years. FEMA made those
   payments in violation of FEMA Directive 8600.1 because it did not design the ADD
   system in a manner that allowed FEMA managers to systematically monitor the
   deployment period of DAEs. Thus, FEMA managers could not ensure that DAEs did not
   exceed the regulatory limit of 18 months of work in a 2-year period. In summary, 14
   percent (1,600 of 11,000) of FEMA DAEs employed from October 2006 to September
   2010 worked for longer than the 78 weeks allowed by policy.

   A number of factors contributed to DAE deployments exceeding FEMA policy caps.
   Regional cadre managers at three FEMA regional offices said that, because of system
   limitations, they would have to take extraordinary and time-consuming steps to manage
   to a 78-week deployment limit. In addition, they said that mission considerations, such
   as the scarcity of skilled employees to fill certain roles and the overall disaster activity in
   a region, may necessitate the extension of certain DAEs beyond the deployment cap.
   For example, if a person is one of a few in the cadre who has specific skills, or if a major



   1
     FEMA: New Disaster Reserve Workforce Model, Booz Allen Hamilton, 2007. 

   2
     Program areas are Community Relations, Congressional Affairs, Environmental Historic Preservation, 

   Equal Rights, External Affairs, Federal Coordinating Officers, Finance/Administration, Hurricane Liaison, 

   Incident Management Assistance Teams, Individual Assistance, Legal Affairs, Logistics, Long-Term 

   Community Recovery, Mitigation, National Response Coordination Centers, Operations, Planning, Public 

   Affairs, Public Assistance, Safety, Security, Training, and Disaster Generalists. 



www.oig.dhs.gov                                         4                                               OIG-13-13
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   disaster or several smaller disasters affect the region at once, a manager may have no
   choice other than deploying DAEs repeatedly in excess of the deployment cap.

   The extent to which DAEs were deployed in excess of 18 months in a 24-month period
   ranged from individuals who were deployed for an extra week or two to more than 400
   individuals who were deployed for 26 weeks (6 months) to a year above the cap. The
   more notable examples of DAEs whose deployments exceeded the cap included a FEMA
   Region II DAE who was deployed full-time (208 weeks) during the entire 4-year period
   we examined, and a Region VII DAE who was deployed for 207 of 208 weeks during the
   period.

   However, it does not appear that FEMA’s noncompliance with Directive 8600.1 resulted
   in FEMA spending Disaster Assistance Fund appropriations on unnecessary work. In
   addition, contrary to the Office of Inspector General (OIG) Hotline complaint that was
   the origin of this report, we identified limited examples of employees whose
   deployment roles appeared to be positions of a continuous nature and not limited to a
   specific disaster, emergency, or project, as required by FEMA Directive 8600.1.
   However, those employees are being used to perform closeout activities on long-term
   public assistance and mitigation projects, not to perform nondisaster-related activities.

   FEMA Managers Are Not Effectively Managing to the DAE Deployment Cap

   Our analysis revealed that approximately 1,600 DAEs who were cadre reservists were
   deployed in excess of FEMA policy during the 4-year period from October 2006 to
   September 2010. FEMA Directive 8600.1 prohibits DAEs from being deployed for longer
   than 78 weeks during any 104-week period ending in September of an even-numbered
   year. Although many DAEs were deployed just a few weeks more than the policy cap,
   others were deployed for much longer—in some cases, up to a year more than the cap.
   Several FEMA regional offices we visited shared key factors that contributed to DAEs
   being deployed in excess of FEMA’s policy cap. Owing to system limitations, some
   managers were unable to track deployments effectively. Managers also cited other
   considerations such as operational and mission-related goals as obstacles to
   implementing deployment caps. These obstacles included having too few highly skilled
   or experienced staff to perform certain functions, longer-lived functions requiring longer
   deployments, and some cadres being understaffed.

   More Than 1,600 DAEs Were Deployed in Excess of the Policy Cap

   During the 4-year period from October 2006 to September 2010, FEMA paid $36 million
   in salary to approximately 1,600 DAEs for deployments in excess of the 78-week
   deployment policy cap. Of the 1,600 DAEs who were deployed in violation of FEMA
   policy, about 350 were deployed above the cap during both 2-year periods we


www.oig.dhs.gov                                5                                       OIG-13-13
                                                   OFFICE OF INSPECTOR GENERAL
                                                     Department of Homeland Security


   examined, from October 2006 to September 2008 and from October 2008 to September
   2010. An additional 700 DAEs were deployed above the cap in the first 2-year period,
   while the remaining 560 DAEs were deployed above the cap in the second 2-year
   period.

   According to FEMA policy, DAEs who are cadre reservists should have initial appointments
   of no more than 24 months. These appointments expire on September 30 of each year
   ending in an even number. During this 104-week appointment period, a cadre reservist
   may not work for more than 78 weeks (or 18 months). For example, if a cadre reservist
   is appointed on August 1, 2008, the first appointment period ends on September 30,
   2008. If this individual continues to work as of October 1, 2008, the individual can only
   work continuously for 78 weeks, or until March 31, 2010. If the individual does not
   work continuously (i.e., has time off between deployments), the times deployed are
   added together to derive the 18-month period.

   Analysis showed that 36 percent of the approximately 1,600 DAEs who worked in excess
   of the policy cap were deployed for up to 10 weeks over the 78-week cap. Thus, a large
   portion of the violations could likely have been managed by deploying alternative
   individuals instead of those who had reached the deployment limit. The remaining 64
   percent of DAEs who were deployed in violation of FEMA policies had deployments that
   ranged from 11 weeks (just under 3 months) over the cap to 35 employees who were
   deployed for all 208 weeks of the period. Figure 1 shows details of deployment cap
   violations.

   Figure 1. DAEs Deployed in Excess of FEMA Policy, by Time Deployed

                              700

                              600
       Number of Employees





                              500

                              400

                              300

                              200

                              100

                                0
                                    Less than 10     11-20          21-30           31-40    41 or more

                                                     Total Weeks Deployed In Excess of Cap

   Source: FEMA payroll records.



www.oig.dhs.gov                                                     6                                      OIG-13-13
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   System Limitations Hinder Managers’ Ability To Manage to the Cap

   Although FEMA built ADD as a tool to monitor and deploy disaster staff, it was not
   designed to facilitate managers’ ability to manage to the cap. ADD does not have a
   built-in capability to notify FEMA managers when DAEs are close to exceeding the
   deployment limit. Nor does ADD enable managers to run reports of employees who
   may be above the 78-week deployment cap. The Government Accountability Office’s
   Internal Control Standards for the Federal Government require a system of internal
   controls that provide reasonable assurance of the effectiveness and efficiency of an
   agency’s operations, including the use of the agency’s resources, in part by designing
   internal controls to ensure ongoing monitoring. However, because monitoring
   employee deployments and managing to the policy cap was complex and time-
   intensive, it was frequently not done.

   Regional cadre managers in three regional offices told us that they did not manage to the
   78-week maximum deployment standard because they could not easily track an
   employee’s deployments. In the past, FEMA sent employee deployment reports to
   regional offices, which regional managers could use to track deployments against the
   cap. However, FEMA has not provided regional offices with these summary deployment
   reports in more than a decade, and has not enabled managers to produce them on their
   own in ADD. Instead, FEMA provides managers with cadre availability reports which
   show all employees within a cadre and their deployment status (e.g., deployed,
   available for deployment, unavailable for deployment). However, these data are
   provided without consideration of the 78-week cap. When a disaster strikes, cadre
   managers must quickly identify employees on their rosters who can staff the disaster,
   often in consultation with the Federal Coordinating Officer appointed for the specific
   disaster. Regional cadre managers informed us that they generally do not have the
   luxury of determining service time before deploying employees. If a disaster is large
   enough, or if the region has been hit with several disasters at once, they have to deploy
   all available resources in their region without consideration of service time. According
   to the managers, large disasters often necessitate that they deploy everyone who is
   available, and they may have to look outside their region for more employees to fill the
   necessary roles.

   Managers said that system limitations impede their ability to take service time into
   account. Although managers have access to an employee’s deployment history and
   number of deployment days through ADD, calculating deployment time is a complex
   and laborious process. For example, one manager who tracks deployment times
   constructed a spreadsheet to record the number of deployments for each employee,
   calculates the numbers of days in each deployment period, adds the days together, and
   then compares the results to the given 2-year period. Other managers told us that they
   did not think it was a reasonable task for cadre managers to perform, given that each


www.oig.dhs.gov                                7                                      OIG-13-13
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   cadre can have 100 employees or more. Further, these calculations would have to be
   performed on a recurring basis. Nearly all regional cadre managers told us they manage
   their cadres as an additional duty beyond their primary responsibilities, and could not
   find time to track each individual manually. 3 Some of the managers, however, said that
   if they were provided with summary employee deployment data reports, they would be
   able to manage more effectively to a maximum deployment period.

   We identified limited examples of regional managers attempting to manage to the 78-
   week standard. For example, one Region VI manager designed an ad hoc spreadsheet
   outside of ADD that contained up-to-date deployment information for each employee in
   the manager’s cadre. However, the manager said that it still took significant time to
   populate and update the spreadsheet on a regular basis with employee information
   from ADD. Through these efforts, the manager was able to identify individuals who
   were reaching the maximum 78-week deployment period, and to keep them from
   further deployments during the period. However, the manager also stated that he was
   the only regional cadre manager whose sole duty was that of managing the cadre.
   Region VII recently instituted a similar tracking system. The new system initially
   resulted in managers having to file waivers for 21 employees who had exceeded the 78-
   week cap. Region VII management approved 7 and denied 14 waivers after identifying
   other DAEs who could perform the work and had not reached their deployment caps.

   Operational and Other Concerns May Hinder Deployment Cap Implementation

   Operational concerns and other practices also affected the ability of regional cadre
   managers to implement the deployment cap. FEMA’s Director’s Policy 1-99 requires
   that cadre managers develop cadres of well-qualified, more frequently deployed DAEs in
   key positions and functions that require FEMA expertise, and requires that managers be
   held accountable for cadre readiness. Several managers said that they are concerned
   that the continuity of long-lived tasks and FEMA’s ability to perform highly specialized or
   advanced tasks would be negatively affected should a cap be enforced. Further,
   recruiting and hiring of DAEs is not organized and consistent across regions, and may
   prevent managers from filling cadres with enough employees to manage to a
   deployment cap. Finally, regional cadre managers are able to fill DAE roles with specific
   individuals as long as those employees work within the region, and the managers are
   not required to identify the people who can fill those roles and are the least recently
   deployed.




   3
    Cadre managers generally serve operational roles within the program area they manage, in addition to
   their duties managing DAE deployments. For example, an External Affairs cadre manager might have an
   operational role as the Regional Director of External Affairs.


www.oig.dhs.gov                                      8                                             OIG-13-13
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Mission Requirements Can Benefit From Deploying or Extending the Same Individuals

   Public Assistance and Mitigation cadre managers said that they had particularly long-
   lived missions that would be negatively affected by a 78-week cap. The projects
   associated with those two areas often continue for months or years after disasters
   strike. DAEs are working closely with State and local officials on projects, and FEMA
   receives negative comments from those officials when a project liaison is changed in the
   middle of a disaster. In those cases, managers try to keep the same person in a role in
   order to maintain continuity of operations for the State and local officials. Managers
   said that a deployment cap that forces them to remove employees from long-lived
   projects may have a negative effect on FEMA’s relationships with State and local
   governments. Some DAEs may be essential on long-lived projects, and FEMA policy
   allows the 78-week rule to be waived with justification for some employees. However,
   the policy prohibits an employee who exceeds the cap on one project from being
   deployed on subsequent disasters within the same monitoring period.

   In addition, cadre managers said that some DAEs fill highly technical or highly
   specialized roles that that are not easily interchangeable with other DAEs, leading to a
   shortage of those resources within cadres. For example, Public Assistance needs skilled
   engineers and architects, who are generally in short supply. Therefore, a DAE who has
   that skill set might be deployed repeatedly without breaks simply because there is no
   one else to fill that role in a region. A similar dynamic exists for External Affairs cadre
   managers we spoke with. They said that while their lower-level positions were more
   interchangeable, the very senior External Affairs Officer (EAO) positions are much
   harder to staff. Therefore, the EAOs were more likely to be staffed on more disasters
   with shorter breaks. However, managers agreed that, for shorter-lived deployments
   and for less specialized or less technically skilled employees, they should be able to
   manage to a 78-week cap.

   Inconsistent Recruiting and Hiring Can Lead to Understaffed Cadres

   Recruiting and hiring of DAEs is not consistent across regions, and is not centrally
   planned at the regions we examined. A manager at one region we visited said that
   resumes are received at both the national and local level, but because cadre
   management is a secondary responsibility, there was not a comprehensive hiring plan.
   Two of the three regions we recently visited started trying to hire using job fairs, but
   only one of them hired new DAEs as a result. Some cadre managers also told us that
   they preferred to keep their cadres lean because cadre management was an additional
   duty. This kind of management has the effect of keeping fewer employees more
   employed, which makes them easier to manage but also hinders a manager’s ability to
   implement a deployment cap. Further, even when DAE recruiting is more proactive, the
   temporary nature of DAE employment and Federal background and credit requirements


www.oig.dhs.gov                                 9                                        OIG-13-13
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   can make it difficult to hire enough employees to staff cadres. At one region we visited,
   the office had invested $30,000 in an advertising and direct recruiting campaign, but
   had seen few results.

   Requests for Specific Individuals Are Standard Practices for Staffing Within Regions

   Most of the cadre managers at the three regions we visited said that, when they needed
   a DAE, they tried to identify whether they had a person who could fill that role within
   their own region who was available for deployment. If they could identify an individual,
   FEMA policy allows them to make a specific request for that individual, regardless of
   how often or how recently that person has been deployed. Therefore, several cadre
   managers said that it was not uncommon for the same people—usually the highest-
   performing or most skilled—to be deployed repeatedly. Managers can enter unlimited
   name requests into ADD without justification, as long as the DAEs being requested are
   within region assets. This is the opposite of how ADD name requests work when the
   DAE being requested is outside of the region making the request. A manager requesting
   a DAE from outside of the manager’s region is required to select from among employees
   who have been deployed the least recently, as long as they have the skills required. In
   the case of a specific name request, however, the request and a justification are
   transmitted to FEMA headquarters.

   Limited Instances Exist of FEMA Using DAEs To Perform Nondisaster-Related Functions

   FEMA policies require that DAEs be used for disaster-related purposes. We received an
   OIG Hotline complaint that FEMA regional offices were using DAEs for nondisaster-related
   purposes. We identified limited examples of this practice. For example, a manager at
   the regional office where the OIG Hotline complaint originated told us that a DAE was
   used to carry out an office’s information technology and network maintenance
   responsibilities because the office did not have a full-time or term employee available to
   perform the task. The manager acknowledged that DAEs are not supposed to perform
   nondisaster-related tasks; however, the manager said that without a DAE to perform
   those functions, the office would not have operated properly. The position in question
   has since been filled by a term employee. The same manager said that DAEs had been
   used to deliver public messages emphasizing disaster planning and preparedness that
   were not related to a specific disaster. However, managers at the other two regional
   offices we visited said that they had never used DAEs to perform nondisaster-related
   functions. Nor did we identify widespread use of DAEs for nondisaster-related functions
   at the regional office where the hotline complaint originated.

   Thus, although the hotline complaint had some merit, the facts and circumstances
   concerning the infractions indicated that occurrences were insignificant. At the three
   regions we visited, we did not find evidence that DAEs were widely used to perform


www.oig.dhs.gov                               10                                       OIG-13-13
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   nondisaster-related functions that are supposed to be performed by full-time and term
   employees. Instead, we determined that the DAEs performed closeout functions on
   projects in areas such as Public Assistance and Mitigation. Regional managers said that
   work on those projects often continues after the Joint Field Office is closed, and that
   DAEs at the regional office often perform tasks such as closing out project worksheets.
   Those types of activities are consistent with FEMA policies regarding the use of DAEs.

   Examples of Employees Exceeding Deployment Cap and Their Assigned Projects

   We found no evidence of FEMA using DAEs systematically to do the work of full-time
   employees on nondisaster-related work. We identified a number of DAEs whose
   deployments exceeded the policy cap. These individuals were deployed up to the full
   208 weeks during the 4-year period that we examined. Among the most-deployed
   individuals, the longest period during which they remained undeployed was as little as 3
   days over a 4-year period. This indicates that some DAEs basically remain full-time
   employees without breaks in service. However, contrary to the OIG Hotline complaint,
   these individuals worked on disaster-related work. Table 1 shows details of these
   examples.

   Table 1. Examples of FEMA DAE Deployments Exceeding FEMA Policy Caps
                                    Weeks Over Cap        Longest
                                                           Period
    Example              Weeks      2007–    2009–                 Deployments/
              Region                                     Without                       Cadre
    Number              Deployed    2008      2010                   Disasters
                                                        Deployment
                                                         (in days)
                                                                                   Environmental
       1          II      208        26       26            3          12/6        and Historical
                                                                                    Preservation
       2          VII     207        25       26            9         15/10           Logistics

       3          II      205        26       23            3          10/5       Public Assistance

       4          VII     202        24       22            7         17/14       Public Assistance

       5          VI      201        21       24           21         18/11           Logistics

       6          II      194        19       19           17         37/15           Logistics
                                                                                    Finance and
       7          VI      186         6       24           79         21/15
                                                                                   Administration
       8          VII     179         8       15           54         19/17           Planning




www.oig.dhs.gov                                    11                                        OIG-13-13
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   FEMA Faces No Adverse Impact by Allowing DAEs To Exceed Caps

   We determined that FEMA would not realize cost savings simply by applying a
   deployment cap. Although specific DAEs received salary in excess of what is allowed if
   FEMA had operated within the policy cap, they were paid for actual work performed. If
   FEMA had adhered to the cap, the same individuals likely would not have been
   deployed repeatedly. However, other individuals would have had to be deployed in
   their place to accomplish FEMA’s mission. Those individuals likely would have worked
   similar hours and collected similar salaries to the DAEs meeting the deployment cap. In
   addition, managers in the regions we visited said that if they were to manage to a cap,
   they might have to deploy some less experienced individuals, which might have an
   effect on FEMA’s mission effectiveness.

   Conclusion
   Currently, FEMA is not managing DAEs to a 78-week standard for maximum deployment
   lengths, as evidenced by 14 percent of its DAE workforce exceeding the 78-week cap
   during the 4-year study period. In addition to system limitations, a number of
   operational concerns present challenges to FEMA managers in enforcing the deployment
   cap. Although FEMA improperly paid approximately 1,600 DAEs $36 million, we
   determined that we did not have an adverse financial effect to FEMA when DAEs
   exceeded the cap. Since the use of DAEs enables FEMA to maintain a workforce that
   can expand or contract efficiently and effectively based on where and when
   presidentially declared disasters occur, the benefits and costs of implementing the
   policy cap should be reevaluated.

   Recommendations
   We recommend that the Associate Administrator, Mission Support:

   Recommendation #1:

   Reevaluate the appropriateness of the 78-week cap on the use of its DAE workforce. If
   FEMA decides that the cap is not necessary, it should abolish the cap.

   Recommendation #2:

   If FEMA decides to maintain the cap, take appropriate steps to ensure that the
   Automated Deployment Database, or its replacement, incorporates features that will
   allow managers to identify when DAE program workers will exceed the 78-week
   maximum deployment limitation.


www.oig.dhs.gov                              12                                      OIG-13-13
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   Recommendation #3:

   If FEMA decides to maintain the cap, identify all currently employed DAEs who have
   exceeded the 78-week deployment limitation and initiate actions to (a) replace those
   DAEs with other DAEs, or (b) approve waivers if those DAEs cannot be replaced.

   Recommendation #4:

   If FEMA decides to maintain the cap, institute a monitoring program that provides FEMA
   senior management information concerning the extent to which FEMA field and
   headquarters offices are complying with the cap.


   Management Comments and OIG Analysis
   We obtained written comments on a draft report from FEMA’s Office of Policy and
   Program Analysis. We have included a copy of the comments in their entirety in
   appendix B.

   In the comments, the Director for the Office of Policy and Program Analysis concurred
   with three of the report’s recommendations, and partially concurred with the fourth
   recommendation. We have reviewed management’s comments and provide an
   evaluation below.

   In response to our first recommendation, that FEMA reevaluate the appropriateness of
   the 78-week deployment cap, FEMA concurred. FEMA stated that it was in the process
   of evaluating the appropriateness of the deployment cap policy and anticipated making
   a determination during fiscal year 2012. We will determine the status of this
   recommendation once we receive the detailed corrective action plan in FEMA’s 90-day
   letter.

   In response to our second recommendation, that FEMA ensure that ADD or its
   replacement incorporate features that allow managers to identify when DAEs exceed
   the deployment cap, FEMA concurred. FEMA stated that the replacement system for
   ADD will include functionalities to track deployments, including compliance with any
   deployment caps. We will determine the status of this recommendation once we
   receive the detailed corrective action plan in FEMA’s 90-day letter.

   FEMA partially concurred with our third recommendation, that FEMA identify all
   currently employed DAEs who have exceeded the 78-week deployment cap and initiate



www.oig.dhs.gov                              13                                      OIG-13-13
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   actions to replace those employees, or grant waivers for them. According to FEMA, no
   DAEs were currently working in excess of the 18-month deployment cap because all
   DAEs were reappointed as of March 2012. However, FEMA agreed that if it should
   decide that a cap is necessary, it will take actions to ensure adherence through better
   cadre management. We believe that FEMA’s proposed actions adhere to the intent of
   our recommendation. However, we will determine the status of this recommendation
   once we receive the detailed corrective action plan in FEMA’s 90-day letter.

   Although this reappointment likely shifts some DAEs from working in violation of the 78-
   week cap to working in compliance with the cap, it does not ensure future compliance
   with any deployment cap that FEMA determines is appropriate. If FEMA decides that a
   deployment cap is necessary, it must take steps to monitor and take action on DAEs who
   reach or have exceeded the cap.

   In response to our fourth recommendation, that FEMA institute a monitoring program
   that provides senior management with information concerning deployment cap
   compliance at the regions, FEMA concurred. FEMA stated that program officials would
   include deployment information in program updates given to senior management. We
   will determine the status of this recommendation once we receive the detailed
   corrective action plan in FEMA’s 90-day letter.




www.oig.dhs.gov                               14                                      OIG-13-13
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   Based on an OIG Hotline complaint that a FEMA regional office improperly used the DAE
   program to circumvent the hiring of full-time employees, we initiated a review of
   FEMA’s internal controls over the use of DAEs. The objectives of the review were to
   (1) determine the extent to which FEMA may be deploying DAEs in violation of its own
   policies and procedures and (2) determine whether FEMA deployed DAEs for routine,
   nondisaster-specific work.

   To determine the extent to which FEMA may be deploying DAEs in violation of its own
   policies and procedures, we obtained FEMA DAE payroll records for October 2006
   through September 2010 and analyzed the pay activity to determine which DAEs
   worked more 18 months out of 24 months, ending on September 30 of years ending in
   an even number. We also reviewed documents used by FEMA headquarters and field
   staff regarding DAE deployment.

   To determine whether FEMA deployed DAEs for routine, nondisaster-specific work, we
   analyzed the results of the tests conducted to identify DAEs who FEMA paid more than
   39 pay periods in both the 52-pay-period cycles ending on September 30, 2008, and
   September 30, 2010. We also interviewed FEMA field and headquarters staff regarding
   the facts and circumstances concerning those DAEs.

   We briefed FEMA concerning the results of fieldwork and the information summarized
   in this report. We appreciate the efforts by FEMA management and staff to provide the
   information and access necessary to accomplish this review.

   We conducted this performance audit between August 2011 and January 2012 pursuant
   to the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.



www.oig.dhs.gov                               15                                      OIG-13-13
                                   OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Appendix B
   Management Comments to the Draft Letter Report

                                                                                     LT.S. Drpllrtn,r nl (lrll .. mtl~ntl   StrUr; I ~>
                                                                                    Washington. DC 20·H2




                                                ~1031i112




              MEMORA, DUM FOR:             D. Michael Beard
                                           Assistanllnspector General. Emergency Management Oversight
                                           Office of Inspector General

              FROM:                        David J. Kaufman    1111      ----
                                           Director          I~
                                           Office of Policy and Program Analysis

              SUBJECT:                     OIG Draft Letter Report 11-124-EMO-FEMA, Federal Emergency
                                           Mllllagemeni Agency Needs 10 Improve lIS ImernaJ Comro/s over the
                                           Use 0/ Disaster Assis/{ll1ce Employees


              The Department of Homeland Security/Federal Emergency Management Agcncy (FEMA)
              appreciates the opportunity to review and respond 10 the DHS Office of Inspector General (OIG)
              Draft Lelter Report II ~ I 24-EMO-FEMA, Federal Emergency MalJagemenl Agency Needs 10
              Impror/! its lntet/wl Controls o\'cr 'he Use of Disaster AssiSlllnce Employees (OAEs). As FEMA
              transitions to a new FEMA Reservist Program. the OIG's analysis and recommendations will
              improve our ability to manage our disaster worHorce,

              As explained in the review. FEMA has taken- and continues to take-significant aClions to improve
              our reservist program and the support we provide to disaster survi \lors. FEMA appreciates the
              findings provided by OIG related to why reservists havc been deployed in excess of official policy
              caps; we also note that the OIG found no evidence o f FEMA using DAEs systcmatically to do the
              work of futl-time employees on non-disaster related work.

              FEMA notes that the OIG conducted thi s rcview betwecn August 2011 and January 20 12, and that
              the audit's scope was limited to whether FEMA uses DA ' s in accordance with offic ial policies and
              procedures. FEMA appreciates the opportunity to provide the fotlowing related updates and
              information outside of the timeframe and seope of this audit:

                  •   New Resen 'ist I)rogra m - FEMA is transilioning the existing DAE program to a new
                      Reservist Program that can better enhance the Agency's capabilities to support disaster
                      survivors by ensuring the workforce has the proper tools. training. experience. and
                      management support. The changes that will come through the Reservist Program are a direct
                      result of the workforce's feedback and recommendations and leadersh ip's commitment to
                      listen and take action on that feedback. These changes include developing and implementing
                      reservist program policy and guidance documents. nationalizing the program to ensurc
                                                                                    www.fcma.,O\'




www.oig.dhs.gov                                             16                                                                            OIG-13-13
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                      consistent national-level cadre management, supporting all reseTVists in deploying at least
                      once a year, and ensuring the consistent application of deployment caps and fair application
                      of such policies.

                  •   Disaster Workforce Systems - In fiscal year 2012, FEMA is identifying requirements for a
                      system to replace the current Automated Deployment Database (ADD). This system-
                      targeted to be implemented in fiscal ycar2013-will have as a requirement the improved
                      ability to monitor deployment history and duration. Further, FEMA has identified an
                      infonnation technology system to track the training, development, and qualifications of its
                      disaster workforce. FEMA has committed to use the Bureau of Land Management's [ncident
                      Qualifications and Certification System (lQCS) and is scheduled to implement IQCS by
                      October 1,2012.

                  •   FEMA Force Structure - As noted in the report, FEMA commissioned a disaster reserve
                      workforce study in 2007 which approximated the number of reservists FEMA would require
                      to support high-demand operational periods. Building upon this study, FEMA's Office of
                      Policy and Program Analysis (OPPA) and the Response Directorate have refined a fo rce
                      structure construct based on historic disaster and deployment data. These force structure
                      requirements will infonn disaster assignments for all employees, including Reservists, Cadre
                      of On-Call ResponseIRecovery Employees (CORE), and Permanent Full-Time (PFT) staff.
                      The force structure identifies the appropriate size, grades, demographics, locations, functions,
                      structure, and composition of the workforce needed to address current and future disaster
                      workload requirements . It will allow FEMA to identify and address skill gaps or deficiencies
                      in mission critical occupations.

              FEMA RespoDse to ole Recommendations
              The draft report contains four recommendations in which 01G recommended that FEMA take the
              following actions:

              OIG Recommendation #1 : Reevaluate the appropriateness of the 78-week cap on the use oflts
              DAE workforce. IfFEMA decides that the cap is not necessary, it should abolish the cap.

              FEMA's RespoDse to Recommendation #1: FEMA concurs with this recommendation. In December
              2011, FEMA's Response Directorate issued policy guidance to all Regional Administrators, Federal
              Coordinating Officers, and National and Regional Cadre Managers to temporarily suspend disaster
              reservists' deployment limits. This policy was issued in order to maintain continuity of critical response and
              recovery operations for tornado outbreaks, Hurricane Irene, and Tropical Stonn Lee. The suspension of
              reservists' deployment limits has continued as FEMA evaluates the cap policy and other options associated
              with it in support of the FEMA Qua1ification System and the new Reservist Program. FEMA expects to
              make a decision regarding the cap policy before the end of fiscal year 2012.

              FEMA considers this recommendation open and resolved until the cap policy decision is made.

              OIG Recommendation #2: If FEMA decides to maintain the cap, take appropriate steps to ensure that the
              Automated Deployment Database, or its replacement, incorporates features that will allow managers to
              identify when DAE program workers will exceed the 78·week maximum deployment limitation.




www.oig.dhs.gov                                               17                                                         OIG-13-13
                                   OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              FEMA's Response to Recommendation #2: FEMA concurs with this recommendation. FEMA recognizes
              the challenges our managers have faced in monitoring the deployment cap using existing technology. As
              stated above, FEMA is identifying requirements for a system to replace the current Automated Deployment
              Database (ADD); implementation of this new system will occur in fiscal year 2013. The intention is that this
              system will have as a requirement functionality that allows managers to monitor and perfonn analytics on
              deployment activity, including functionality that supports compliance with any deployment caps that are
              reinstated or adjusted.

              FEMA considers this recommendation open and resolved until implementation of the ADD system.

              OIG Recommendation #3: IfFEMA decides to maintain the cap, identify all currently employed
              DAEs who have exceeded the 78-week deployment limitation and initiate actions to (a) replace those
              DAEs with other DAEs, or (b) approve waivers if those DAEs cannot be replaced.

              FEMA's Response to Recommendation #3: FEMA partially concurs with this recommendation. In
              March 2012, all DAEs were reappointed and, therefore, no reservist is currently in excess of the 78-
              week deployment limit. Should the cap be reinstated or adjusted, FEMA will ensure compliance with
              the policy through an improved technology system and centralized cadre management.

              FEMA considers this recommendation open and resolved until the cap has been reinstated or
              adjusted.

              OIG Recommendation #4: If FEMA decides to maintain the cap, institute a monitoring program
              that provides FEMA senior management infonnation concerning the extent to which FEMA field
              and headquarters offices are complying with the cap.

              FEMA's Response to Recommendation #4: FEMA concurs with this recommendation. As part of
              regular program updates to senior management, the Incident Workforce Management Office will
              provide information related to deployment duration and compliance along with current reservist
              program policies on this issue.

              FEMA considers this recommendation open and resolved until the cap has been reinstated or
              adjusted.

              Once again, thank you for the opportunity to comment on the draft report. FEMA looks forward to
              working with you on future engagements. Please contact our FEMA Audit Liaison, Gina Norton, at
              202-646-4287, with any questions or concerns regarding this response.




www.oig.dhs.gov                                             18                                                       OIG-13-13
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretariat
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Administrator, Federal Emergency Management Agency
   Director, FEMA GAO/OIG Audit Liaison Office
   Director of Local Affairs, Office of Intergovernmental Affairs

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Senate Committee on Homeland Security and Governmental Affairs
   Senate Committee on Appropriations
   House Committee on Homeland Security Committee
   House Committee on Appropriations Committees




www.oig.dhs.gov                                19                   OIG-13-13
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
